HHS/OIG, Audit -"Graduate Medical Education for Dental Residents Claimed by Ohio
State University Hospital for Fiscal Years 2000 Through 2002,"(A-04-04-06009)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Graduate
Medical Education for Dental Residents Claimed by Ohio State University Hospital for Fiscal
Years 2000 Through 2002," (A-04-04-06009)
April 25, 2006
Complete
Text of Report is available in PDF format (905 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Ohio State University Hospital (the Hospital) included
the appropriate number of dental residents in its full-time equivalent (FTE) counts when
computing Medicare graduate medical education (GME) payments for fiscal years (FYs) 2000
through 2002.  The Hospital inappropriately included a total of 75.04 direct GME FTEs
and 92.29 indirect GME FTEs in the counts for FYs 2000 through 2002 without incurring all
of the costs of training dental residents in nonhospital sites for those years.  As
a result, the Hospital overstated its direct and indirect GME claims by a total of $3.5 million
for FYs 2000 through 2002.
We recommended:  that the Hospital file an amended cost report that will result in
a refund of $3,524,633; that the Hospital establish and follow written procedures to ensure
that the FTE counts for residents in nonhospital settings include only those FTEs for which
the Hospital has incurred all or substantially all of the training costs; and that the Hospital
determine whether errors similar to those identified in our review occurred in Medicare cost
reports after FY 2002 and refund any overpayments.  The Hospital generally disagreed
with our findings and recommendations.